UNPUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 20-7525

GREGORY K. CLINTON,
Plaintiff - Appellant,
v.
CHERYL DEAN RILEY, in her individual capacity,
Defendant - Appellee.

Appeal from the United States District Court for the Northern District of West Virginia, at
Martinsburg. Omar Jawdat Aboulhosn, Magistrate Judge. (3:20-cv~00151-TEJ-OJA)

Decided: December 29, 2020

Submitted: December 22, 2020

Before NIEMEYER, FLOYD, and RICHARDSON, Circuit Judges.

Dismissed by unpublished per curiam opinion.

Gregory K. Clinton, Appellant Pro Se.

Unpublished opinions are not binding precedent in this circuit.

t

Zo-7frf
PER CURIAM:
Gregory K. Clinton seeks to appeal the magistrate judge’s order denying Clinton’s
motion for appointment of counsel in his underlying civil action, filed pursuant to Bivens
v. Six Unknown Named Agents of Fed. Bureau of Narcotics, 403 U.S. 388 (1971). This
court may exercise jurisdiction only over final orders, 28 U.S.C. § 1291, and certain
interlocutory and collateral orders, 28 U.S.C. § 1292; Fed. R. Civ. P. 54(b); Cohen v.
Beneficial Indus. Loan Corp., 337 U.S. 541, 545-46 (1949). The order Clinton seeks to
appeal is neither a final order nor an appealable interlocutory or collateral order. Miller v.
Simmons, 814 F.2d 962, 967 (4th Cir. 1987). Accordingly, we dismiss the appeal for lack
of jurisdiction. We deny Clinton’s motions for summary judgment and to amend his appeal
and correct the judgment. We further deny as moot Clinton’s motion to expedite and for
release pending resolution of this appeal. We dispense with oral argument because the
facts and legal contentions are adequately presented in the materials before this court and
argument would not aid the decisional process.
DISMISSED

2

Case 3:20-cv-00151-TEJ-OJA Document 12 Filed 09/24/20 Page 1 of 2 PagelD #: 105

IN THE UNITED STATES DISTRICT COURT FOR THE
NORTHERN DISTRICT OF WEST VIRGINIA
MARTINSBURG
GREGORY KEITH CLINTON,
Plaintiff,
v.

CIVIL ACTION NO. 3:20-CV-151
(CHIEF JUDGE THOMAS E.
JOHNSTON, by Special Assignment)

CHERYL DEAN RILEY,
Defendant.
ORDER DENYING PLAINTIFF’S
MOTION FOR APPOINTED COUNSEL
On August 14, 2020, the pro se Plaintiff initiated the above-styled civil rights action
pursuant to Bivens v. Six Unknown Agents of Federal Bureau of Narcotics. 403 U.S. 388
(1971). On August 31,2020, Plaintiff filed an application to proceed without prepayment
of fees, which contained a motion to appoint counsel.

ECF No. 8 at 1.

In contrast to a criminal proceeding in which the Court has a duty to assign counsel
to represent an indigent defendant in accordance with his constitutional rights, the Court
in a civil case has the discretion to request an attorney to represent a person unable to
employ counsel. See 28 U.S.C. § 1915(e)(1). It is well settled that in a civil action, the
Court should appoint counsel to represent an indigent only after a showing of a particular
need or exceptional circumstances.

Cook v. Bounds. 518 F.2d 779 (4th Cir. 1975).

“The question of whether such circumstances exist in any particular case hinges on
characteristics of the claim and the litigant.” Whisenant v. Yuam. 739 F.2d 160,163 (4th
Cir. 1984). abrogated on other grounds bv Mallard v. U.S. Dist. Court for S. Dist. of Iowa.
1

Case 3:20-cv-00151-TEJ-OJA Document 12 Filed 09/24/20 Page 2 of 2 PagelD #: 106

490 U.S. 296 (1989). “If it is apparent to the district court that a pro se litigant has a
colorable claim but lacks the capacity to present it, the district court should appoint
counsel to assist him.”

Id. (quoting Gordon v. Leeke. 574 F.2d 1147, 1153 (4th Cir.

1978)).
Upon review of the pending motion, the undersigned is of the opinion that the
Plaintiff has failed to show a particular need or exceptional circumstance that would
require the assistance of a trained practitioner.
Accordingly, it is ORDERED that Plaintiffs motion for appointment of counsel
contained within his application to proceed without prepayment of fees is DENIED.
The Clerk of the Court is directed to mail a copy of this Order to Plaintiff by certified
mail, return receipt requested, to his last known address as reflected on the docket sheet
and to counsel of record via electronic means.
DATED:

September 24, 2020.

Omar J. Aboulhosn
United States Magistrate Judge
SITTING BY SPECIAL ASSIGNMENT

2

•. • - •

■■'"WWMIHMWIBS-.

:

*

1

•*.

W&Xfi

•y'i c
;*
4

V

;•

HHB'
mmmmmmmmam
«. r

!:-v

:

>
#*

•

p

7

•»•.

'i

*.’•;' Y'

*..

:

mm
i
/

7

i:-

mMkWBsmiMlMgsMmmM

in

‘

z

;

USE

•.

>,Su4

5

ia

!□

3 p• ir
: ru

;

»

J

s

i .

! cr

;
*, •

%'

3:20-cv-00151 (12,13)
Gregory Keith Clinton 03226-087
GILMER
FEDERAL CORRECTIONAL INSTITUTION
Inmate Mail/Parcels
P.0. BOX 6000
GLENVILLE, WV 26351

\

i

i

■..■■■.■

jW/VV--:
*T

,

5^

r .

<

v

Mr
1 n- certified Maft Fee
: ui *

.

;

1
■•.

t

)>?:.v {3
\

?

1

;

v

J

*. *.
•. *.
;

*.

: k.
.• <
-.-•

sent lb

“

• r-R

.

{»-i

.□
!
•)

'^•&A&TfoarPffB&xNS;

P-

r
<3iy:S&le;-2Ifl&*...................

i

fTTTTT]

j*

J :'\fVVnw\

:
,V >
?

i

.

•.
•.

smmmm-

•'*

i

* 1

•i

:
: •.

t

4

•»

mmmmmmmrn ■

*

;

4

1

*:
*

•*

*

‘

L

>,

«■

■.

4

*1

*

V

>

v ••V:-’-'

4

•s’

\

-t

4*

• •>

■i

t

%

;

j

i

\

%

;
f

9
i

*

m§L.........

*

*

a.

**
«

1

0«.

%

j

v

•

ii

; .s

t

f
</

;

-

:

‘ '.!
■

■

V - *-r

<’

v*

I--

» •

$$

5

%

> ■

i-

-V

<

\.V

:

* •

i
. 4-

‘

4

1
*r

N

<L

j

Case 3:20-cv-00151-TEJ-OJA Document 47 Filed 01/25/21 Page 1 of 11 PagelD #: 267

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF WEST VIRGINIA

GREOGRY KEITH CLINTON,
Plaintiff,
v.

CIVIL ACTION NO. 3:20-cv-00151

CHERYL DEAN RILEY,
Defendant.

MEMORANDUM OPINION AND ORDER
Pending before the Court is Plaintiff Gregory Clinton’s (“Plaintiff’) complaint, (ECF No.
1), filed on August 14, 2020; supplemental complaint, (ECF No. 4), filed on August 21, 2020; and
motion to recuse, filed on October 13, 2020, (ECF No. 29). The complaint alleged violations of
his constitutional rights pursuant to Bivens v. Six Unknown Named Federal Agents of Federal
Bureau of Narcotics, 403 U.S. 388 (1971). (ECF No. 1.) On August 21, 2020, Plaintiff filed
another supplement to his complaint. (ECF No. 4.) By order entered on August 28, 2020, this
action was designated and assigned to this Court. (ECF No. 5.) By order of this Court on
September 14, 2020, this action was referred to United States Magistrate Judge Omar Aboulhosn
for submission of proposed findings and a recommendation for disposition (PF&R”).

On

September 30, 2020, Magistrate Judge Aboulhosn filed a PF&R, (ECF No. 19), recommending
that this Court deny Plaintiffs Application to Proceed without Prepayment of Fees and Costs,
(ECF No. 8), and dismiss Plaintiffs Complaint and Supplement. (ECF Nos. 1, 4.) Plaintiff filed
his objections to the PF&R on October 14, 2020. (ECF No. 33.)

Case 3:20-cv-00151-TEJ-OJA Document 47 Filed 01/25/21 Page 2 of 11 PagelD #: 268

For the reasons discussed herein, the Court OVERRULES Plaintiffs objections, (ECF
No. 33), ADOPTS the PF&R, (ECF No. 19), and DISMISSES this action from the docket of the
Court.
I.

BACKGROUND

Plaintiff is an inmate at FCI Gilmer in Glenville, West Virginia. (ECF No. 1.) On April
19, 2018, Plaintiff was convicted by a jury on counts of being an armed career criminal in violation
of 18 U.S.C. §§ 922(g)(1), 924(a)(2), and 924(e); possession with intent to distribute cocaine in
violation of 21 U.S.C. § 841(a)(1); and possession with intent to distribute cocaine hydrochloride
in violation of 21 U.S.C. § 841(a)(1). United States v. Clinton, Case No. 3:17-cr-0005 (N.D. W.
Va. August 29, 2018), (Case No. 3:17-cr-0005, ECF No. 40.) Plaintiff was also convicted of
lesser included offenses with regards to additional possession with intent distribute charges. (Id.)
The jury also returned a special verdict form as to the forfeiture finding that a firearm was
knowingly used during the commission of some of these offenses. (Id, ECF No. 185.) On
August 27, 2018, United States District Court Judge Gina Groh sentenced Plaintiff to a total term
of 264 months imprisonment to be followed by five years of supervised release. (Id, ECF No.
205.)
The complete factual and procedural history of Plaintiffs numerous habeas proceedings
are set forth in detail in the PF&R and need not be repeated here. The instant Complaint, filed by
Plaintiff and proceeding pro se, seeks relief pursuant to Bivens v. Six Unknown Federal Agents of
Federal Bureau of Narcotics, 403 U.S. 388 (1971). (ECF No. 1.) Plaintiff filed a Supplemental
Complaint on August 21, 2020. (ECF No. 4.) In both his Complaint and the Supplemental,
Plaintiff names Cheryl Dean Riley (“Riley”), Clerk of Court for the United States District Court
2

Case 3:20-cv-00151-TEJ-OJA Document 47 Filed 01/25/21 Page 3 of 11 PagelD#:269

for the Northern District of West Virginia, as the sole Defendant. (EOF Nos. 1, 4.) Plaintiff
asserts that Riley has committed “fraud and identity theft,” “SEC violations/FINRA violations, tax
evasion,” and that she “violated his constitutional rights under the 4th, 5th, 10th, and 14th
Amendments.” (Id.)
The PF&R thoroughly analyzes each of Plaintiffs arguments contained within his
Complaint and Supplemental Complaint, and it recommends that this Court deny Plaintiffs
Application to Proceed without Prepayment of Fees and Costs, (ECF No. 8), and dismiss
Plaintiffs Complaint and Supplement. (ECF Nos. 1, 4.)
II.

STANDARD OF REVIEW

A. Recusal
Title 28 U.S.C. § 455 governs disqualification of federal district court judges. In pertinent
part, the section reads that, “[a]ny justice, judge, or magistrate judge of the United States shall
disqualify himself in any proceeding in which his impartiality might reasonably be questioned.”
28 U.S.C. § 455(a). The statute also requires removal if the judge possesses a personal bias or
prejudice concerning a party or personal knowledge of the disputed facts; where, in private
practice, he served as a lawyer on the matter or where he associated with a lawyer currently on the
matter; where he served in governmental employment and participated in the proceeding; where he
or an immediate family member has a financial interest in the subject matter; or if anyone in the
judge’s family, within a third degree of relationship to him or his spouse, is involved in the
proceeding as an attorney, party, material witness, or has a financial interest in the outcome. 28
U.S.C. § 455 (b). The test for recusal is an objective one. United States v. Cherry, 330 F.3d 658,
665 (4th Cir. 2003). “The inquiry is whether a reasonable person would have a reasonable basis
3

Case 3:20-cv-00151-TEJ-OJA Document 47 Filed 01/25/21 Page 4 of 11 PagelD #: 270

for questioning the judge's impartiality, not whether the judge is in fact impartial.” Id. The fact
that a judge ruled adversely against the movant in a related proceeding does not warrant recusal,
see United States v. Parker, 742 F.2d 127, 128-29 (4th Cir. 1984), and a judge is not required to
recuse himself for nothing more than “unsupported, irrational or highly tenuous speculation.”
Cherry, 330 F.3d at 665 (citing United States v. DeTemple, 162 F.3d 279, 287 (4th Cir. 1998)).
B. Review ofMagistrate Judge’s Findings and Recommendations
The Court is required to “make a de novo determination of those portions of the report or
specified proposed findings or recommendations to which objection is made.” 28 U.S.C. §
636(b)(1)(C). However, the Court is not required to review, under a de novo or any other
standard, the factual or legal conclusions of the magistrate judge as to those portions of the
findings or recommendation to which no objections are addressed. Thomas v. Am, 474 U.S. 140,
150 (1985). In addition, this Court need not conduct a de novo review when a plaintiff “makes
general and conclusory objections that do not direct the Court to a specific error in the magistrate’s
proposed findings and recommendations.” Orpiano v. Johnson, 687 F.2d 44, 47 (4th Cir. 1982).
In reviewing those portions of the PF&R to which Plaintiff has objected, this Court will consider
the fact that Plaintiff is acting pro se, and his pleadings will be accorded liberal construction.
Estelle v. Gamble, 429 U.S. 97, 106 (1976); Loe v. Armistead, 582 F.2d 1291, 1295 (4th Cir.
1978).
III.

DISCUSSION

A. Motion to Recuse
Plaintiff bases his motion to recuse entirely on the argument that the Court lacks
jurisdiction over his claims and, in particular, his criminal conviction. (ECF No. 29 at 1-2.) As
4

Case 3:20-cv-00151-TEJ-OJA Document 47 Filed 01/25/21 Page 5 of 11 PagelD#:271

this argument serves as the basis for the majority of his objections, the Court shall take up its
analysis, infra. Plaintiff has not identified any reason requiring the recusal of this Judge under 28
U.S.C. § 455. For that reason, and the reasons more fully described below, Plaintiffs motion to
recuse is DENIED.
B. Objections to the PF&R
Plaintiff submitted his objections to the Magistrate Judge’s PF&R on October 14, 2020.
(ECF No. 33.) At the outset, the Court notes that Petitioner’s objections to the PF&R are not to
any specific perceived errors within the PF&R, but rather seem to be challenges to the
constitutional authority of both the Magistrate Judge and this Court to exercise jurisdiction over
this matter. Given the rather unusual objections, the Court will briefly review each.
1. Objection One
Plaintiffs first objection asserts that “[t]he court cannot produce the constitutional
authority that allows the court to take jurisdiction and enter judgements, orders or decrees in favor
of the United States arising from a civil or criminal proceeding regarding a debt in Berkley County
West Virginia the United States District [j/c].” (ECF No. 33 at 1.) Plaintiff asserts that the Court
is a court of general jurisdiction, and that it may only exercise jurisdiction in “Federal territory
such as the District of Columbia and the territories to wit.” (ECF No. 33 at 1-2.)
Article III is the source within the United States Constitution from which the judiciary
finds its authority. “The judicial Power of the United States, shall be vested in one Supreme
Court, and in such inferior Courts as the Congress may from time to time ordain and establish.”
U.S. Const. Art. Ill, § 1. “The judicial Power shall extend to all Cases, in Law and Equity, arising
under this Constitution, the Laws of the United States, and Treaties made, or which shall be made,
5

Case 3:20-cv-00151-TEJ-OJA Document 47 Filed 01/25/21 Page 6 of 11 PagelD#:272

under their Authority; ... to Controversies to which the United States shall be a Party[.]” U.S.
Const. Art. Ill, § 2.

Furthermore, and as is directly stated on Plaintiffs Complaint and his

Supplemental Complaint, the Court has jurisdiction pursuant to 28 U.S.C. §§ 1331 and 2201.
Section 1331, which is the “Federal question” statute, establishes that “[t]he district courts shall
have original jurisdiction of all civil actions arising under the Constitution, laws, or treaties of the
United States.”

Section 2201 establishes that “[i]n a case of actual controversy within its

jurisdiction, . . ., any court of the United States, upon the filing of an appropriate pleading, may
declare the rights and other legal relations of any interested party seeking such declaration,
whether or not further relief is or could be sought.”
Plaintiff is a federal inmate, housed at the Federal Correctional Institution Gilmer in
Glenville, West Virginia, and he was convicted of violations of federal criminal statutes. See
United States v. Clinton, Case No. 3:17-cr-0005 (N.D. W. Va. August 29, 2018). Plaintiff raised
these complaints under the United States Constitution and federal securities trading law while
incarcerated.1

(See ECF Nos. 1, 4.) Because Plaintiff brought complaints that arose under the

Constitution and federal law, the exercise of jurisdiction by this Court is proper.
Plaintiffs objections are difficult to comprehend, but his main assertion appears to be that
the Court cannot exercise jurisdiction in West Virginia because it is a “United States District
Court. „2

Apparently, in Plaintiffs view, this limits the Court’s authority to the District of

1 The Court notes that Plaintiff s claims appear to be another attack on his underlying convictions and sentences. {See
generally ECF Nos. 1, 4.) Magistrate Judge Aboulhosn recognized this as well. {See ECF No. 19 at 12.) As the
Magistrate Judge explained, Plaintiff has already challenged the validity of his convictions and sentences by filing
habeas petitions. {See ECF No. 19 at 13.) Only one petition is still pending as of this Order.
2 Notably, Plaintiff tried to scratch out references to the “Northern District of West Virginia” on his Complaint form
and Supplemental Complaint, and instead wrote in “District Court of the United States” and “Fourth Circuit.” {See,
e.g., ECF No. 1 at 2.) This appears to be an attempt to avoid this Court and instead proceed directly to, in Plaintiff s
own words, the “‘True’ Article III Court US Fourth Circuit Court of Appeals True Constitutional Court Richmond
6

Case 3:20-cv-00151-TEJ-OJA Document 47 Filed 01/25/21 Page 7 of 11 PagelD #: 273

Columbia and other United States territories. The Court cannot and does not speculate on what
would appear to be a gross or purposeful misunderstanding of the principles of federalism and the
function of federal laws and the judiciary in this country. His objection is without merit and is
therefore OVERRULED.
2. Objection 2
Plaintiffs next objection is that the Magistrate Judge signed an Order denying Plaintiffs
motions for a subpoena and the motion to vacate the referral of this matter to a Magistrate Judge.
(ECF No. 33 at 3.) Plaintiff accuses the Magistrate Judge of “treason” for signing this order,
(ECF No. 20), without the constitutional authority described above.
For the reasons already explained, jurisdiction in this Court is proper.

Moreover,

Plaintiffs objection is not directed to a specific finding in the PF&R. Therefore, Plaintiffs
objection is OVERRULED.
3. Objection 3
Plaintiffs next objection appears to be another attack on his criminal judgment, and he
asserts that AUSA Anna Krasinski and United States District Court Judge Gina Groh agreed to
dismiss with prejudice “Document 40 in case 3:17cr-5. 3m (ECF No. 33 at 4.) Plaintiff accuses
Riley, the Clerk of Court, of “affinity fraud” in filing his criminal judgment. (Id)
“Affinity fraud” refers to investment scams that target identifiable groups, such as the
elderly. See Affinity Fraud: How to Avoid Investment Scams That Target Group, U.S. SECURITIES
and

Exchange Comm’n (Oct. 9, 2013), https://www.sec.gov/investor/pubs/affinity.htm.

Moreover, Plaintiff was brought to trial and convicted by a jury of his peers on five criminal
VA.” {Id at 1.)
3 Document 40 in case number 3:17-cr-00005 is the superseding indictment in Plaintiffs criminal case.
7

Case 3:20-cv-00151-TEJ-OJA Document 47 Filed 01/25/21 Page 8 of 11 PagelD#:274

counts, as evidenced by the entry of criminal judgment. (Case No. 3:17-cr-0005, ECF No. 205.)
The Securities Act of 1933 and Securities Exchange Act of 1934 do not provide Plaintiff with the
means to challenge his conviction, and Plaintiff has similarly not stated a claim under either act.
Regardless, Plaintiff has not objected to a specific finding in the PF&R. For the foregoing
reasons, Plaintiffs objection is OVERRULED.
4. Objection 4
Again, Plaintiff objects to proper jurisdiction4 in this Court and uses that objection as his
base to argue that neither Riley nor Judge Groh possess immunity in this matter. (ECF No. 33 at
4-5.) Plaintiff appears to argue that, because of his belief the Court lacks jurisdiction, Judge Groh
is not entitled to judicial immunity, and therefore neither is Riley as the Clerk of Court. (Id.)
As the Court has already addressed the jurisdictional issue and finding Plaintiffs objection
unpersuasive, it will review judicial immunity in this context. Judicial immunity is absolute.
See, e.g., Mitchell v. Forsyth, 472 U.S. 511, 521 (1985). Absolute immunity is typically reserved
for “judges performing judicial acts within their jurisdiction, . . . prosecutors performing acts
intimately associated with the judicial phase of the criminal process,... and quasi-judicial agency
officials whose duties are comparable to those ofjudges or prosecutors when adequate procedural
safeguards exist.” Ostrzenski v. Seigel, 111 F.3d 245, 249 (4th Cir. 1999) (internal quotations
omitted).
Judge Groh presided over Plaintiffs criminal trial. As demonstrated, federal district
courts possess jurisdiction over criminal violations of federal statutes, thereby providing the

4 Again Plaintiff objects based on the mistaken belief that a United States District Court only has jurisdiction in
Washington, D.C. or any of the United States territories. (ECF No. 33 at 33.) As explained, Berkley County, West
Virginia sits in the Northern District of West Virginia; Plaintiff was charged with violating federal criminal statutes in
that county; therefore, the Northern District has proper jurisdiction.
8

Case 3:20-cv-00151-TEJ-OJA Document 47 Filed 01/25/21 Page 9 of 11 PagelD#:275

United States District Court for the Northern District of West Virginia jurisdiction over Plaintiffs
criminal proceedings. Therefore, Judge Groh is absolutely immune from any suit for money
damages as she performed judicial acts in a matter that she possessed subject-matter jurisdiction.
See Mireles v. Waco, 502 U.S. 9, 11-13 (1991) (per curiam); Stump v. Sparkman, 435 U.S. 349,
362-64, 98 S.Ct. 1099, 55 L.Ed.2d 331 (1978).
Because Judge Groh possessed judicial immunity, so too did Riley as the Clerk of Court.
See, e.g., Harris v. Suter, 3 Fed. App’x. 365, 366 (6th Cir. 2001) (“When a clerk files or refuses to
file a document with the court, he is entitled to immunity, provided the acts complained of are
within the clerk’s jurisdiction.”).

Plaintiffs main contention appears to be that Riley filed his

criminal judgment. As a judicial function within the Clerk’s jurisdiction, Riley is entitled to
immunity.
For the foregoing reasons, Plaintiffs objection is without merit, and therefore
OVERRULED.
5. Objection 5
Plaintiffs next objection is to the Magistrate Judge filing his PF&R in the absence of
proper jurisdiction. (ECF No. 33 at 6.) By doing so, Plaintiff accuses the Magistrate Judge of
subterfuge and treason.

(Id)

Therefore, Plaintiff claims entitlement to a ruling of $

3,839,000,000 (three billion, eight hundred thirty-nine million). (Id.)
Plaintiffs objection is without merit for the reasons previously explained. The District
Court and the Magistrate Judge have proper jurisdiction of this matter. Plaintiffs objection is
OVERRULED.

9

Case 3:20-cv-00151-TEJ-OJA Document 47 Filed 01/25/21 Page 10 of 11 PagelD #: 276

6. Objection 6
Plaintiff again objects that the Magistrate Judge does not have the authority to “make a
determination of the facts or law or legal analysis and cited Authority to issue judgments, or
Orders.” (ECF No. 33 at 10.) Plaintiff apparently argues the above renders the Magistrate
Judge’s PF&R void. (Id.)
A magistrate judge is empowered through 28 U.S.C. § 636(b)(1)(B) to “submit to a judge
of the court proposed findings of fact and recommendations for the disposition, by a judge of the
court,... of applications for posttrial relief made by individuals convicted of criminal offenses and
of prisoner petitions challenging conditions of confinement,” when designated by the district court
judge. By Order of this Court and entered September 14, 2020, this matter was designated to
Magistrate Judge Aboulhosn for submission of proposed findings of fact and a recommendation
for disposition pursuant to 28 U.S.C. § 636(b)(1)(B). Plaintiffs objection is without merit.
For the foregoing reasons, Plaintiffs objection is OVERRULED.
7. Objection 7
Plaintiff next objects and states that “[tjheir [sic] is no legal reason why Plaintiff
Application to proceed without paying prepayment fee the 30 day time period has not elapsed and
cannot make that determination till time has expired.” (ECF No. 33 at 10.)
Plaintiffs Complaint is subject to dismissal. Moreover, Plaintiff has not objected to a
specific finding in the PF&R. For the foregoing reasons, Plaintiffs objection is OVERRULED.

10

Case 3:20-cv-00151-TEJ-OJA Document 47 Filed 01/25/21 Page 11 of 11 PagelD #: 277

8. Objection 8
Plaintiffs final objection is to the Magistrate Judge’s entry of Document 20, the'denial of
his motions to vacate the order of referral and his motion for subpoena. {Id.) He bases this.
objection on the Magistrate Judge’s jurisdiction in this matter. {Id.)
As previously explained, Plaintiff’s objection to jurisdiction is without merit. Moreover,
his objection is to motions outside of the scope of the PF&R. For the foregoing reasons,
Plaintiffs objection is OVERRULED.
IV.

CONCLUSION

Accordingly, the Court DENIES Petitioner’s Motion for Recusal, (ECF No. 29);
OVERRULES Petitioner’s objections, (ECF No. 33); ADOPTS the PF&R, (ECF No. 19); and
DISMISSES this action from the docket of the Court. The Court DIRECTS the Clerk to remove
this case from the Court’s active docket.
IT IS SO ORDERED.
The Court DIRECTS the Clerk to send a copy of this Order to counsel of record and any
unrepresented party.
ENTER:

January 25, 2021

THOMAS E. JOHNSTON, CHIEF JUDGE

11

T'/ l/t ^ p
-.

fa4k

"a

/iJfj d/7u

£> ■f £oL#Jia /%,.6S/S/L ^

7*
t Tit o~/i/fX

WotJt, Jhe /nf/Ai,;*/ /■?/X/^X ,//2/,‘d/>;rrhCoc/jlt a J j/s //&,-//**/

7

///ft/ /AS //£/,3£ $ J2 3 / / fj//rJHa/Sa//\>

SXjJui/f » Mr 11IZ/Q/'lfJ
/?/?/?
n

a/a

d.ihsrf' s/jv4f%'u/l:c(

T

uSAL

jjLJ twh j# jy lM^/l£A i'hfp

i/

t/i.ihu-b ceuih tl-fJit /Aj -/fd'/V ZV/^ 77
yt5/ wLk'^c/uJ^ ■jhf 7AA m

&a7^4

ditj/iu f (so/t “lv 'f/)rh 0/t/iijfHt*J a/a /ts/rf M/iJfX -iJi/tsx
Xou£-b6 /l^)h(./)J>A J/j'/JlX JfA Ai ''rJrdu-hX^/y/-A O'/

,f>jsi~/jrS ' / aj 7/ Ha' 1% £{?)£.
USffJhU

l

A

J9l‘i

.l/ Ti4/a 7? //$£% */.Kf Q)5 u5fd,/J

.TUfe n£/$/,$mi} i!/duJeJMas dsfatr.
\raut-l.t, "ikj 4i-f//? 2? Uf){> ■ ! -h ti/jgjji/af J)AU£ J/AA/J A/g/JAtf/t

Jfir Ca/uarASS 4o Srl/ilf, ' /}f) otjfrfi k/'fli1)

~~

§ 4. Who is "person" authorized to proceed in forma pauperis
The Supreme Court has adopted a limiting construction as to who is a "person" authorized
under 28 USGS § 1915 to proceed in forma pauperis in federal court.
An artificial entity such as'an association is not a "person" for purposes of28 USCS § 1915
and thus, only a natural person may qualify for treatment in forma pauperis under § 1915, the
Supreme Court held in Rowland v California Men’s Colony, Unit II Men's Advisory Council
(1993, US) 121 L Ed 2d 656, 113 S Ct 716. The record showed that a civil rights action had been
filed in a Federal District Court by a representative association of state prison inmates. The
Supreme Court reversed a Federal Courfpf Appeals' judgment in favor of the association and
remanded the case with instructions that the case be remanded to the District Court, where the
association's motion for leave to proceed in forma pauperis was to be denied. According to the
Supreme Court, the sole reason cited in the legislative history of a 1959 amendment changing
"citizen" to "person" in 28 USCS § 1915(a). was to extend the benefits of § 1915 to aliens. The.
court recognized that under a Dictionary Act-provision (1 USCS § 1) for determining the meaning
of any act of Congress, the word "person" includes artificial entities such as corporations and
associations unless the context indicates otherwise. However, the court reasoned that four
contextual features in § 1915 indicate that "person" refers to only an individual: (1) the permissive
language in the 28 USCS § 1915(d) provision authorizing a court to request an attorney for any
such indigent "person" (§§14 and 15 infra), suggesting probable, underlying assumptions-highly
unlikely to be made about an artificial entity-concerning the legal capacity of a "person" to appear
in court without being represented by counsel; (2) the § 1915(d) description of the affidavit of
indigency required by § 1915(a) as an allegation of "poverty," which in its primary sense is a
human condition (§7, infra); (3) § 1915(a)'s affidavit references, which better fit natural persons,
whereas allowing an individual’s affidavit on. an entity's behalf would raise difficulties with such
matters as (a) the establishment of an affiant’s authorization, (b) the statute’s natural reading that
the affiant is the person claiming in forma pauperis entitlement (§5, infra), and (c) the deterrence
of false claims through the perjury sanction (§2[b], supra); and (4) Congress' failure to hint at a
resolution of the issues that would be raised by applying an "inability to pay" standard to artificial
entities, including (a) an appropriate alternative to the traditional standard (§7, infra), and (b) the
circumstances in which courts, to avoid abuse, would look beyond an entity to the ability of the
entity's members to pay. According to the Supreme Court, in each of its prior cases concerning
other federal statutes where a broad definition of "person" had been held to apply in spite of
contextual incongruities as strong as, or stronger than, those in §1915, some other aspect of
context had independently implicated the broad reading, whereas § 1915 manifested no such
single purpose which would be subject to substantial frustration by limiting the statutory reach to
natural persons. In addition, the Supreme Court found no need to construe § 1915 to mclude an
artificial entity such as an association as a "person" in order to avoid violating the Federal
LED2ANNO
©2019 Matthew Bender & Company, Inc., a member of the LexisUexis Group. All rights reserved Use of this product is subject to the restrictions
and terms and conditions of the Matthew'Bender Master Agreement.

Constitution's First Amendment right of association, because the court determined that limiting § 1915 to individuals does not place an unconstitutional burden on members’ First Amendment ■
rights to associate.
* Comment: The 1959 amendment changing "citizen" to "person" in 28 USCS §
1915(a)-which amendment was discussed in the Rowland decision, supra-effectively superseded
the Supreme Court's specific reasoning in Roberts v United States Dist. Court (1950) 339 US
844, 94 L Ed 1326, 70 S Ct 954, to the effect that (1) citizenship was solely a matter of federal
law for the purpose of in forma pauperis proceedings in federal courts; (2) Congress had not then
specified criminal convictions, except for desertion and treason, as grounds for loss of citizenship,
and (3) therefore, a Federal District Court had erred in ruling that pursuant to a state-statute
depriving certain prisoners of civil rights, a particular, state prisoner-was not entitled to the
benefits of 28 USCS § 1915 as no longer a "citizen.” It is possible, however, that some of the
Supreme Court's Roberts reasoning may retain some general precedential value as to the extent to
which federal law, rather than state law, controls when proceeding under § 1915.
II. Affidavit of Indigency Under § 1915(a)
§ 5. Extent to which affiant must be person seeking in forma pauperis status
For purposes of the 28 USCS § 1915(a) requirement that an affidavit of indigency be filed
when a person is seeking to proceed in forma pauperis in federal court under 28 USCS § 1915,
the Supreme Court has generally indicated that with some possible exceptions, the person making
such an affidavit must be the person who is seeking in forma pauperis status. 15
Thus, in Rowland v California Men's Colony, Unit II Men’s Advisory Council (1993, US) 121
L Ed 2d 656, 113 S Ct716, supra §4, the Supreme Court-in holding that only a natural person
may qualify as a "person" authorized under 28 USCS § 1915 to proceed.in forma pauperis in
federal court-observed that for purposes of the 28 USCS § 1915(a) reference to a person who
makes affidavit that "he" is unable to pay, and for purposes of the § 1915(a) requirement for the
affidavit to state matters including the affiant's belief that "he" is entitled to redress, the natural
reading is that "he" refers to the person claiming in forma pauperis entitlement. The Supreme
Court recognized that on occasion, the court would accept an affidavit of indigency from a
guardian ad litem or attorney when a party (1) was a minor or incompetent, (2) failed to
cooperate with appointed counsel, or (3) for some reason was unable to file a timely affidavit.
According to the court, however, while such acceptance bent the § 1915(a) requirement, it was
clear in such circumstances that the party was a "person" within the meaning of § 1915. In
addition, the Supreme Court indicated that pursuant to the limitation of § 1915 to natural persons, the filing of a suit in forma pauperis under the names of individual members "known as" an
association would require each such member to file an affidavit of indigency.
LED2ANNO
© 2019 Matthew Bender & Company. Lac., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

